  *qAMTRAK
      NATI ONAL RAILROAD
      PASSENGER CORPORATION
                                        Office of Inspector General          or)
Memorandum
To:           Gordon Hut,chin~n, Acting Chief Financial Officer
           ~ D/.u;//<A-~~'-_
From:         tr~d R. W~ren
               Assistant Inspector General, Audits

Date:         June 27, 2012

Subject:       Audit Engagement Memo: Amtrak Capital Program Management
               (Project No. 011-2012)

The OIG is initiating an audit of Amtrak's processes for managing its capital programs.
The objective of this audit is to determine the adequacy of Amtrak's capital program
management practices to include policies and procedures for managing its capital
programs in the areas of estimating, scheduling, oversight, and project close-out.

During the audit, OIG Audit personnel and OIG contractors will meet with individuals
responsible for capital program management and oversight, analyze documents
associated with Amtrak's capital program management processes, review contract
management files and research best practices in capital program management. Requests
for documents will be made as the audit progresses. We will keep you advised of the
status of our work and any material changes in our audit objective as the work
progresses.

We will perform our audit work in accordance with Generally Accepted Government
Auditing Standards (GAGAS), Within the next two weeks, we plan to initiate the audit
and will schedule an entrance conference meeting through Amtrak's audit liaison.

Edward Stulginsky will be the Senior Director and Joseph Zammarella will be the Audit
Manager for this audit. They will be assisted by OIG contractors from Clifton Larson
Allen. If you have any questions, please contact me (David .Warren@Amtrakoig.gov),
Edward Stulginsky at 8-777-4296 or by email at Ed.Stulginsky@Amtrakoig,gov, or
Joseph Zammarella at 8-777-4794 or by email at Ioseph,Zarnmarella@Am trakoig.gov.
cc: OJ Stadtler, Vice President, Operations
    Mario Bergeron, Chief Mechanical Officer
    Emmett Fremaux, Vice President, Marketing and Product Development
    Lisa Shahade, Acting Chief of Police
    Jason Moifetas, Chief Information Officer
    Frank Vacca, Chief Engineer
    Jessica Scritchfield, Senior Director, Internal Controls/Audit
